                                 NATIONAL SCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON. VIRGINIA 22230




      OFFICE OF
 INSPECTORGENERAL




                                     ,
                                 "?:p#                   j::
MEMORANDUM                                   r . . k t.<
                                                      $>. +


                       ,,   .+




To:    File I99100039
       m:     s s i s            t       a   n        t Inspector General for Investigations

From: ,                Special Agent




           September 29,1999 a
           NSF       may have 1
                                                                           .tly>hada
check serfo                                                                1 thit a       m


                                                               -
                                                                           :OIG
                               edit card that did not belong to him, but waIS reported as
belonging to him. Both the OIG employee and e          r       e NSF empk~yeesin 1993
 and 1994.                         #
                                                                                    d
                         b
Investi~ation

                                           that -from             NSF-      was not th
                                         After deterrnlnlng that       as not the
                                                      was halted     a lack of jurisdiction. There
                                          of NSF-        has used an            than his own.

Conclusions


h  ecase is closed
 Based on the determination that                                   from NSF-
                                                                  action.
                                                                                  had not used the OIG
